                       Office of Inspector General
           Export-Import Bank of the United States




 Follow-Up of Audit Recommendations 

             Reported In
Medium Term Export Credit Program –
 Information Technology (IT) Systems,
       Support and Governance




                                      Evaluation Report
                                          June 30, 2010
                                        OIG-EV-10-01
Office of Inspector General                 Export-Import Bank
                                            of the United States
June 30, 2010

MEMORANDUM

TO: 	                 John McAdams, Senior Vice President, Export Finance
                      Kenneth Tinsley, Senior Vice President, Credit and Risk Management
                      John Simonson, Senior Vice President and Chief Financial Officer
                      Fernanda Young, Chief Information Officer

FROM:                 Jean Smith
                      Assistant Inspector General for Audit

SUBJECT: 	           Audit recommendations reported in Medium Term Export Credit Program –
                     Information Technology (IT) Systems, Support and Governance (June 12, 2009,
                     OIG-AR-09-05)

This memorandum transmits Evaluation Report OIG-EV-10-01, Follow-Up of Audit Recommendations
Reported In Medium Term Export Credit Program – Information Technology (IT) Systems, Support and
Governance. The Office of Inspector contracted with Protiviti to evaluate management’s progress in
implementing recommendations contained in the subject audit. The specific objective was to determine
whether the Export-Import Bank of the United States (Ex-Im Bank or the Bank) implemented actions to
correct deficiencies in the IT systems and processes to administer the Medium Term (MT) Program.

The evaluation found that Ex-Im Bank addressed many of the deficiencies. Although the specific
recommendations may not have been implemented fully, the Bank has taken the necessary actions to establish
appropriate controls in most of the areas that needed strengthening. Based on these actions, we closed four of
five recommendations reported in OIG-AR-09-05. The Chief Information Officer plans to address the
remaining open recommendation by publishing an IT Strategic Plan after the completion of the Bank’s
Strategic Plan, which is expected to be finalized in July 2010.

We made one suggestion to further strengthen the IT support for the MT Program for the CIO’s consideration.
The CIO concurred with the suggestion.

We appreciate the courtesies and cooperation provided to the auditors during the evaluation. If you have any
questions, please call me at (202) 565-3944.


cc:	     Fred P. Hockberg, Chairman and President
         Audit Committee
         Alice Albright, Senior Vice President, Chief Operations Officer
         Michael Cushing, Senior Vice President, Resource Management
         Jeffrey Abramson, Vice President, Trade Finance and Insurance
         Walter Hill, Vice President, Credit Review and Compliance
         Michele Kuester, Vice President, Operations and Data Quality
         David Carter, Vice President, Credit Underwriting
         Ravi Arulanantham, Senior Advisor to the Chairman
         Shannon McCall, Audit Liaison

                   811 Vermont Avenue, N.W. Washington, D.C. 20571
Export-Import Bank of the United States 

Follow-Up of Audit Recommendations Reported In
Medium Term Export Credit Program –
Information Technology (IT) Systems, Support and
Governance (June 12, 2009, OIG-AR-09-05)




This report is intended for the use of management, the Board of Directors and Office of Inspector General of the Export-Import Bank of the United States.
This report provides management with information about the condition or risks and internal controls at one point in time. Future changes in environmental
factors and actions by personnel may significantly and adversely impact these risks and controls in ways that this report did not and cannot anticipate.
Executive Summary 

The Office of Inspector General contracted with Protiviti to conduct an evaluation of management’s
progress in implementing recommendations contained in the performance audit report Medium Term
Export Credit Program – Information Technology (IT) Systems, Support and Governance (June 12,
2009, OIG-AR-09-05). The specific objective was to determine whether the Export-Import Bank of
the United States (Ex-Im Bank or the Bank) implemented actions to correct deficiencies in the IT
systems and processes to administer the Medium Term (MT) Program. Having strong controls in
the Program is critical to prevent fraud and to serve U.S. exporters.

Our evaluation found that Ex-Im Bank has addressed many of the deficiencies. Although the
specific recommendations may not have been implemented fully, the Bank has taken the necessary
actions to establish appropriate controls in most of the areas that needed strengthening. Based on
these actions, we closed four of five recommendations reported in OIG-AR-09-05. Appendix A
presents a summary of the results of follow-up testing of audit recommendations reported in OIG-
AR-09-05.

The actions taken by Ex-Im Bank are presented below.

Management Oversight and Accountability

The Vice President (VP) of Trade Finance and Insurance (TFI) has been designated as the senior
manager responsible for the ongoing development of detailed IT business requirements in response
to strategic objectives identified for the MT Program. This VP determines the priorities for Ex-Im On-
Line (EOL) enhancements for the MT Program and, together with his staff, has reviewed, updated,
and categorized the MT list of Change Requests (CRs). Additionally, the VP of Operations and Data
Quality has defined and reviewed with senior management a prioritized list of 20 categories of
enhancements/fixes that will be used to establish the scope and direction of future releases of EOL.
All CRs, including those related to MT, have been mapped to the prioritized categories. In addition,
the EOL User Group has been meeting on a more regular basis and the VP of TFI attends most of
the meetings, along with other representatives from his group.

Improvements to the IT Systems that Support the MT Program

The Bank has developed a new Ex-Im Reporting System (ERS) that encompasses an enterprise-
wide data repository/warehouse and related business intelligence reporting tools. The new data
warehouse enables the Bank to consolidate data that exists in multiple files and data bases across
several systems that support the MT Program. ERS provides data in a more timely, reliable and
user friendly manner.

The Office of the Chief Information Officer (OCIO) is in the process of working with TFI and Credit
Underwriting (CU) officials to identify requirements and criteria for classifying transactions according
to their risk profile and corresponding lender ratings.

The VP of Operations and Data Quality has established a process for reviewing and scrubbing
participant data to minimize data duplication and improve data quality. Also, this office and other Ex-
Im Bank offices review applications to help identify applicants that may be fraudulent or likely to
default.




                                                                                                    i
Executive Summary 

We suggest that the CIO continue to work with TFI and CU officials to identify requirements and
criteria for classifying transactions according to their risk profile and corresponding lender ratings.
These requirements and criteria should provide the basis for automating alerts and credit scoring
models and thereby minimize dependency upon manual processes and controls. Also, we suggest
that the CIO look for opportunities to integrate the various transaction systems that support the MT
Program in order to minimize the steps involved in maintaining information in multiple systems and
reduce the dependency on manual controls.

Improvements to the Systems Development Process

OCIO has made several improvements to the systems development process. More user friendly
approaches for defining end user business requirements to supplement “Use Cases” have been
implemented. The VP of Operations and Data Quality serves as a liaison between OCIO and the
end users to help ensure that business requirements for CRs and enhancements are complete and
clearly documented. The OCIO has also developed a suite of automated regression test scripts to
provide for more comprehensive testing of new releases. In addition, training materials and
frequently asked questions have been provided online to make training more readily available to end
users and improve their level of understanding of the systems that support the MT Program.

Open Recommendation

Although the Bank has taken positive steps to address several of the deficiencies, one of the five
recommendations remains open. An IT Strategic Plan has yet to be developed for the MT Program.
The Ex-Im Bank Chairman has started a Strategic Planning initiative and a Bank-wide strategic plan
is expected to be finalized in July 2010. The OCIO will develop and map corresponding IT
strategies and plans to the specific goals of the MT Program once the Bank-wide strategic plan is
completed, including MT specific strategic goals and objectives.

Management Response

The CIO concurred with our findings. To close the open recommendation, the CIO will publish an IT
Strategic Plan three months after the July 2010 completion of the Bank’s Strategic Plan.

The CIO also concurred with our suggestion. The CIO will continue to work with officials to minimize
the dependency on manual processes and controls, and seek opportunities to integrate systems that
support the MT Program.




                                                                                                    ii
Table of Contents 

                                                                  Page
    Executive Summary                                              i


    Background and Objectives                                      1


    Scope and Methodology                                          4


    Findings Follow-Up and Suggestions                             5


    IT Systems, Support and Governance                             5

      Finding 1 – MT Program IT Planning is Needed                 5
      Finding 2 – IT Systems that Support the MT Program Need 
    6
                  Improvement 

                       Suggestion 1                                7
      Finding 3 – Systems Development Process Needs 
              7
                  Improvement 


    Appendix A – Results of follow-up testing of audit             8
    recommendations reported in Medium Term Export Credit
    Program – Information Technology (IT) Systems, Support
    and Governance (June 12, 2009, OIG-AR-09-05).

    Appendix B – Management Response                               10
Background and Objectives 


Background   The Export-Import Bank of the United States (“Ex-Im Bank” or the “Bank”) is the
             official export credit agency of the United States. Ex-Im Bank supports the
             financing of U.S. goods and services in international markets, turning export
             opportunities into actual sales that help U.S. companies of all sizes to create and
             maintain jobs in the United States. Ex-Im Bank assumes the credit and country
             risks that the private sector is unable or unwilling to accept. Ex-Im Bank also helps
             U.S. exporters remain competitive by countering the export financing provided by
             foreign governments on behalf of foreign companies. At the same time, the Bank
             must safeguard taxpayer resources by determining that there is a reasonable
             likelihood of repayment with respect to each of its transactions.

             Ex-Im Bank offers short term (“ST”), medium term (“MT”) and long term (“LT”)
             export credit financing products. The core MT products offered by Ex-Im Bank are
             as follows:

             MT Loan Guarantees: Ex-Im Bank loan guarantees cover the repayment risks on
             the foreign buyer’s debt obligations incurred to purchase U.S. exports. Ex-Im Bank
             guarantees to a lender that, in the event of a payment default by the borrower, the
             Bank will pay to the lender the outstanding principal and interest on the loan. Ex-Im
             Bank’s comprehensive guarantee covers 100 percent of the commercial and
             political risks for up to 85 percent of the U.S. contract value of the export
             transaction. Guarantees extended under the MT Program typically have repayment
             terms of one to seven years and range in amount from $100 thousand or less to $10
             million.

             MT Export Credit Insurance: Ex-Im Bank credit insurance helps U.S. exporters
             develop and expand their overseas sales by protecting them against loss should a
             foreign buyer or other foreign debtor default for political or commercial reasons.
             Similar to the loan guarantee product, Ex-Im Bank covers 100 percent of the
             commercial and political risks for up to 85 percent of the U.S. contract value of the
             export transaction. Credits insured under the MT Program typically have
             repayment terms of one to seven years ranging from $100 thousand or less to $10
             million.

             Direct Loans: Ex-Im Bank’s direct loan Program is a foreign buyer credit program
             in which Ex-Im Bank makes a loan to a foreign buyer to purchase U.S. exports.
             Loan disbursements go directly to the U.S. exporter as the export products are
             shipped to the foreign buyer.




                                                                                              1
Background and Objectives 

      To support the processing and management of the MT Program, Ex-Im Bank uses
      the following systems:

             Ex-Im Online (EOL)
             Application Processing System (APS)
             Loan and Guarantee Accounting System (LGA)
             Claims and Recovered Debt Servicing System (CARDS)
             Insurance Information System (IIS)
             Asset Management System (AMS)
             Ex-Im Reporting System (ERS)

      The following is a summary of the key applications supporting the MT Program:

      EOL - This web-based system provides basic transaction origination support to the
      MT Program. The front end intake processing portion of the system captures the
      initial application data, tracks documents and manages the work flow. The system
      feeds data to LGA, CARDS and IIS. Prior to EOL, the AS400 system was used to
      process MT transactions.

      APS – This legacy mainframe system was the predecessor of EOL. It allowed the
      bank to process case-related information from initial customer contact through
      application receipt, case evaluation, credit analysis, and authorization. While new
      applications are not submitted to APS, it does contain historical data on
      applications received before EOL was implemented.

      LGA and CARDS – These systems are converted, legacy mainframe systems that
      provide basic accounting, general ledger and claims processing support to all of
      the Bank’s programs. The systems have been re-hosted to a server platform
      maintained at the Bank to enable them to take advantage of more current web-
      enabled technologies similar to those supporting the EOL System.

      IIS – This is a Structured Query Language (SQL) Server database developed in
      the early 1990s that is used for reporting. It aggregates data from different system
      repositories, mainly the Financial and Administrative System and EOL databases.
      Although sometimes referred to as a data warehouse, it does not meet the
      definitions of a data warehouse. Users have had to resort to manual processes
      and “workarounds” to find data that should be in the IIS.

      AMS – This system is a Lotus Notes application developed and used by the Asset
      Management Division to monitor deals other than ST and working capital.

      ERS – Ex-Im Reporting System is an enterprise-wide data repository/warehouse
      and related business intelligence reporting tools. The new data warehouse
      enables the Bank to consolidate data that exists in multiple data bases across
      several systems that support the MT Program. ERS provides data that is timely,
      accurate and easy to access. It supplies critical metrics and detailed customized
      reporting for use by the MT Program staff.




                                                                                      2
Background and Objectives 


Objectives 	   The specific objective of this evaluation was to determine whether Ex-Im Bank
               implemented actions to correct the identified weaknesses reported in audit report
               Medium Term Export Credit Program – Information Technology (IT) Systems,
               Support and Governance (June 12, 2009, OIG-AR-09-05).




                                                                                            3
Scope and Methodology 

     The scope of the evaluation focused on IT systems and related processes supporting
     Ex-Im Bank’s MT Program. Fieldwork was conducted on-site at Ex-Im Bank’s
     headquarters in Washington, DC in April 2010.

     Interviews were held with key personnel in order to evaluate management’s progress
     in addressing audit findings and implementing recommendations contained in
     performance audit report Medium Term Export Credit Program – Information
     Technology (IT) Systems, Support and Governance (OIG-AR-09-05, June 12, 2009).
     Specifically, we met with representatives from the following divisions of the Bank:
     Credit Review and Compliance, Operations and Data Quality, Trade Finance and
     Insurance (TFI), Credit and Risk Management, and Office of the Chief Information
     Officer (OCIO).

     We also reviewed documentation that supported management’s progress in
     implementing corrective actions. Detailed testing of MT transactions was not
     conducted as part of the evaluation.

     The technology review focused on the management oversight of the IT support for the
     MT Program, and the key systems and IT processes supporting the MT Program.
     The primary systems reviewed were the EOL system and the new Ex-Im Reporting
     System (ERS) hosted on Ex-Im Bank’s on-site servers.

     We performed this evaluation because historically the MT Program has significantly
     underperformed the Short Term and Long Term Programs. Having strong controls in
     the MT Program is critical to prevent fraud and serve U.S. exporters.




                                                                                    4
Findings Follow-Up and Suggestions 

IT Systems, Support and Governance
              The below finding titles are a repeat of titles presented in Medium Term Export
              Credit Program – Information Technology (IT) Systems, Support and
              Governance (June 12, 2009, OIG-AR-09-05) and are not intended to convey a
              present deficiency. Use of these titles is to report on the status of
              recommendations presented in OIG-AR-09-05.

Finding 1     MT Program IT Planning is Needed

              Ex-Im Bank took actions to more effectively govern the level of systems support
              the MT Program is receiving. The Vice President (VP) of TFI has been
              designated as the senior manager with responsibility for the management of IT
              systems support for the MT Program. In addition, the VP of Operations and
              Data Quality serves as the liaison between the MT Program users and the
              OCIO. Specific actions to address improving IT support for the Program
              included:

                   The MT list of Change Requests (CRs) has been reviewed and updated.
                   A prioritized list of 20 categories of enhancements/fixes has been
                    defined by the VP of Operations and Data Quality Division and reviewed
                    with management, including the VP of TFI. These categories will be
                    used to establish the scope and direction of future releases of EOL. All
                    CRs, including those related to MT, have been mapped to the prioritized
                    categories.
                   The EOL User Group, which establishes the priorities for EOL
                    enhancements for the MT Program, has been meeting on a more
                    regular basis. The VP of TFI attends most of these meetings and other
                    TFI staff members also attend the meetings regularly.

              While the above efforts are positive, an IT Strategic Plan has still not been
              developed for the MT Program. The Bank is developing a detailed strategic
              plan including specific goals and objectives for the MT program. That plan is
              going to be used by the OCIO to develop MT specific IT Strategic objectives
              and milestones. Prior to this review, the Ex-Im Bank Chairman started a
              Strategic Planning initiative, in which a high level Bank-wide plan had been
              drafted and circulated for senior management review and comment.
              Management estimated the Bank-wide strategic plan to be finalized in July
              2010.

              The OCIO is working in parallel with the team preparing the Bank Strategic plan
              and will develop and map corresponding IT strategies and plans that align and
              integrate each program’s IT requests with the Bank-wide goals and priorities.
              The IT plan will also align with specific objectives and goals of the MT Program.

              Based on the above, we determined that Ex-Im Bank’s actions satisfy OIG-AR-
              09-05 recommendation 1B. However, recommendation 1A in OIG-AR-09-05
              remains open. The CIO should develop an IT Strategic Plan that is aligned with
              the MT Program business plan and covers the same time period.



                                                                                          5
Findings Follow-Up and Suggestions 

             Management Response

             The CIO stated that the OCIO will publish the IT Strategic Plan three months
             after the completion of the Bank Strategic Plan including specific MT
             objectives. The IT strategies and plans will align and integrate each program’s
             IT requests with the Bank-wide goals and priorities and address specific
             objectives and goals for the support of the MT short term and long term
             objectives.



Finding 2   IT Systems that Support the MT Program Need Improvement

            Ex-Im Bank has identified and implemented actions to enhance the functional IT
            capabilities to support the MT Program. One implemented action was that the
            OCIO developed the ERS which encompasses an enterprise-wide data
            repository/warehouse and related business intelligence reporting tools. The
            new data warehouse enables the Bank to consolidate data that exists in
            multiple files and data bases across several systems that support the MT
            Program. ERS provides data that is more timely, accurate and easy to access.
            It supplies critical metrics and detailed customized reporting for use by the MT
            Program staff. For example, the “Overdue History” report supports MT
            Guarantees and other types of transactions currently not processed in EOL.
            Use of the “Overdue History” feature can result in an e-mail notification being
            sent by EOL to the appropriate analyst when a payment is overdue. A link is
            available to view historical data in ERS listing all participants associated with an
            overdue transaction.

            Additional actions to improve IT support of the MT Program include, but are not
            limited to, the below.

            The OCIO is in the process of working with TFI and Credit Underwriting (CU) to
            define objective criteria for classifying transactions according to their risk profile
            and corresponding lender ratings. These requirements and criteria should
            provide the basis for automating alerts and credit scoring models and thereby
            minimize dependency upon manual processes and controls.

            Since our initial audit, the VP of Operations and Data Quality established a
            team that reviews and scrubs participant data to minimize duplicate participant
            names and improve data quality. The need for these manual controls can be
            attributed to some extent to the non-integration of systems used for the MT
            Program.

            In addition to the above manual effort, we found that several divisions in Ex-Im
            Bank manually review applications to determine if they require further review by
            the General Counsel’s Office in an effort to minimize losses from fraud and
            defaults.




                                                                                             6
Findings Follow-Up and Suggestions 

               Recognizing that Ex-Im Bank has been working to improve IT support for the
               MT Program, we determined that management has implemented adequate
               action to satisfy OIG-AR-09-05 recommendations 2A and 2B. However,
               continued work to automate MT Program requirements and integrate systems
               would result in providing effective and efficient processing and monitoring of the
               MT Program.

               The CIO should continue to work with TFI and CU officials to identify
Suggestion 1   requirements and criteria for classifying transactions according to their risk
               profile and corresponding lender ratings. Also, the CIO should look for
               opportunities to integrate the various transaction systems that support the MT
               Program in order to minimize the steps involved in maintaining information in
               multiple systems and reduce the dependency on manual controls.

                Management Response

                The CIO stated that the OCIO will continue to work with the re-aligned Trade
                Finance and Credit Management officials to 1) identify requirements and
                criteria for classifying transactions according to their risk profile and
                corresponding lender ratings, and 2) seek opportunities to integrate the various
                transaction systems that support the MT program.



Finding 3      Systems Development Process Needs Improvement

               The OCIO has taken several steps to improve the use of systems development
               methodologies for business requirements definition, the level of testing, and the
               availability of end user training throughout the design and build out of EOL.
               These include:

                  	 Developing a suite of automated regression test scripts for testing with
                     each release.
                  	 Utilizing the VP of Operations and Data Quality as a liaison between
                     OCIO and the business users. This individual works closely with both
                     groups to help ensure that business requirements are clearly articulated
                     and documented, properly translated into code and sufficiently tested.
                  	 Implementing a new EXIMNET page, “EXIM Online Resources,” that
                     includes training materials for new releases and frequently asked
                     questions, making training more readily available to end users and
                     thereby improving their level of understanding of the systems supporting
                     the MT Program.

               Based on the above actions, we determined that management has implemented
               adequate action to satisfy OIG-AR-09-05 recommendation 3.




                                                                                           7
Appendix A 

The documentation below provides the results of follow-up testing of audit recommendations
reported in Medium Term Export Credit Program – Information Technology (IT) Systems, Support
and Governance (June 12, 2009, OIG-AR-09-05). We determined that Ex-Im adequately
addressed and closed four of five recommendations noted below.

 Finding – Management, Oversight and Accountability of IT Support for the MT Program
 Needs Strengthening
 Recommendation 1A.                                                      Open
 Develop an IT Strategic Plan that is aligned with the MT
 Program business plan and covers the same time period.
 Recommendation 1B.                                                     Closed
  Designate a senior manager with responsibility and
   accountability for the management of the IT systems
   support for the MT Program throughout its life cycle.
  Direct the designated senior manager to take a leadership
   role in the ongoing development of detailed business
   requirements in response to strategic objectives identified
   for IT support of the MT Program and requests for
   enhancements from system users and in the communication
   of those business requirements to the OCIO.
  Direct the designated senior manager to obtain a plan of
   action and milestone schedule from the OCIO that
   addresses all outstanding CRs/defects, which should
   include all system capabilities required to meet
   management’s objectives for the MT Program, and to take
   prompt action to ensure the OCIO has timely and
   appropriately prioritized and developed a well documented
   plan to address each CR/defect.
 Finding – IT Systems that Support the MT Program Need Improvement
 Recommendation 2A.                                                     Closed
  Define and document the key transactional data fields that
   must be stored across all Ex-Im Bank programs and the
   structures and relationships between them. This data model
   would address the problems related to multiple participant
   files and other common reference data. The data model
   would also highlight information needs that are not currently
   met by existing databases or applications.
  Develop, document and implement a plan to enhance the
   functional capabilities and interoperability of EOL and the
   other systems supporting MT Program transactions, with a
   focus on design and implementation of embedded system
   controls, such as:
   o automation of MT lender rating and credit scoring
        models;
   o automated system alerts that warn of transaction
        participants with prior claims history as well as denied,




                                                                                         8
Appendix A 

      withdrawn or fraudulent transactions across all Ex-Im
      Bank lending programs; and
  o automated monitoring of all MT Program transactions
      regardless of size.
Recommendation 2B.                                               Closed
Develop data repositories that consolidate and organize the
key transactional data fields.
Finding – Systems Development Process Needs Improvement
Recommendation 3: Implement:                                     Closed
 A user friendly process for submitting and accepting new
  end user business requirements as it relates to requests for
  system enhancements. This process should also facilitate
  improved communication between the OCIO resources and
  end users to ensure that business requirements are
  accurately designed and that justification is provided for
  denied requests.
 A more robust testing program that a) includes the
  development of a comprehensive suite of test cases and
  test scripts that can be automatically rerun multiple times
  and b) requires formal involvement of MT users in the
  development of the test cases, the execution of the tests
  and the sign-off of test results.
 A more formal and comprehensive training program for EOL
  system users. The training should focus not only on the
  mechanics of the system but also on the policies and
  processes that the system is supporting. Details on the
  training program should be made available on Ex-Im Bank’s
  website




                                                                          9
Appendix B 





           MANAGEMENT RESPONSE 

           TO EVALUATION REPORT 





                                    10
                                 EXPORT-1MPORT BANK
                                  0/ the UN (TED STATES
June 25, 2010



Jean Smith
Assistant Inspector General for Audit
Office of Inspector General
Export-Import Bank of the United States

Ref: Status Update - Follow-up of audit recommendations reported in Medium Term
Export Credit Program -Information Technology (In Systems, Support and Governance
(June 12,2009. OIG-AR-09-05)


       Dear Jean:

       Thank you for the opportunity to review and comment on the status of
recommendations made in the audit report Medium Term Export Credit Program-
Infonnation Technology (fI) Systems, Support and Governance (June 12,2009, OIG-
AR-09-0S .

       We are in agreement with the detennination of the status of the recommendations
reported in OIG-AR-09-0S. The Ex-1m Bank has continued to enhance its IT services
and controls for the MT program. Four of the five recommendations reported in OIG-
AR-09-05 are closed.

   •   The Office of the CIO (OCIO) \\;11 publish the IT Strategic Plan 3 months after
       the compJetion of the Bank Strategic Plan including specific MT objectives. The
       IT strategies and plans will align and integrate each program's IT requests with
       the Bank-wide goals and priorities and address specific objectives and goals for
       the support of the MT short term and long term objectives.

   •   The   oelo will also continue to work with the re-a1igned Trade Finance and
       Credit Management officials to 1) identify requirements and criteria for
       classifying transactions according to their risk profile and corresponding lender
       ratings, and 2) seek opportunities to integrate the various transaction systems that
       support the MT program.

        The Bank has accomplished a large number of critical milestones since the last
review. For example: I) the Bank has established a new due diligence process for fraud
detection; 2) in July 2009, the Bank has deployed an enterprise-wide data model and
repository and related business intelligence tool (Ex-1m Reporting System (ERS»; 3) the
overdue reporting to support MT Guarantees as well as non-Ex-Im Online (EOL)
transactions (including WCG, CGF, Transportation, Structured Finance and LT deals) is
available during underwriting; 4) a comprehensive default notice reporting system has
been integrated into the EOL system to provide early warning and reporting functionality;
5) we developed a large suite of automated regression test scripts that are enhanced and
executed with each release; and 6) a new Intranet page "EX 1M ONLINE RESOURCES"
was developed including the schedules, user group minutes, training materials for new
releases and FAQs.

       The OCIO looks forward to working with you and is committed to evaluating and
implementing the IT recommendations consistent with the broader strategic objectives of
the Bank's leadership.



Sincerely.


~nQ"cla~"'b
Fernanda Young 

Chief Information Officer 



Cc: 

John McAdams, Senior Vice President, Export Finance 

Kenneth Tinsley, Senior Vice President, Credit and Risk Management 

101m Simonson, Senior Vice President and Chief Financial Officer 

Michael Cushing, Senior Vice President, Resource management 

Jeffrey Abramson, Vice President, Trade Finance 

Alice Albright, Executive Vice president and Chief Operating Officer 

